September 29, 2008

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Scheduled Maintenance
         Service in the Great Lakes Area (Report Number DR-AR-08-009)

This report presents the results of our self-initiated audit, Vehicle Maintenance Facilities
(VMF) – Scheduled Maintenance Service in the Great Lakes Area (Project Number
08XG007DR000). The overall objectives were to assess whether the Great Lakes Area
accomplished the required vehicle scheduled maintenance and whether they integrated
both VMFs and local commercial resources for optimum efficiency. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Great Lakes Area completed the majority of their required scheduled preventive
maintenance (SPM1) in fiscal year (FY) 2007. However, management could further
optimize VMF efficiency through the more effective use of VMF and local commercial
resources. Better optimizing its resources could save the Great Lakes Area an
estimated $28 million over 10 years.

Scheduled Maintenance Performance

Great Lakes Area VMF units and LCVs completed an average of 90 percent of their
required SPMs. Four VMF units completed all of the SPMs, and five VMF units
completed between 73 and 97 percent of the required SPMs. Not completing all the
required SPMs occurred because of:

    •   A shortage of assigned maintenance technicians.

    •   An increased maintenance workload at one VMF unit.2

    •   An inadequate process for VMF units to manage available maintenance and
        repair resources.

    •   The practice of changing vehicle status from “maintenance not performed” (also
        called “maintenance in arrears”) to “maintenance performed” by adjusting the
        SPM schedule.
1
  An SPM usually includes preventive maintenance inspections and any repairs needed to maintain the vehicle or
meet the safety and reliability standards.
2
  One VMF unit’s maintenance workload included servicing new vehicles that were not assigned to their facility.
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-009
 Service in the Great Lakes Area




Without completing all the required SPM, the U.S. Postal Service may be more
vulnerable to vehicle breakdowns and accidents, which could adversely impact timely
mail delivery and potentially affect the well-being of employees and the public. Since
the Postal Service does not plan to begin replacing its current fleet of Long Life Vehicles
(vehicles that are more than 20 years old) until 2018, we believe it is critical that these
vehicles receive their SPM in a timely manner. Click here to go to Appendix B for
additional information about this audit.

We recommend the Vice President, Great Lakes Area Operations, direct district
managers to:

1. Assess vehicle maintenance technician positions at individual vehicle maintenance
   facilities to ensure sufficient staff is available for maintenance service.

2. Monitor and track key maintenance activities to ensure timely completion of all
   required scheduled maintenance and repairs.

3. Require vehicle maintenance facility officials to immediately conduct all missing or
   past due maintenance in arrears and properly record vehicle status if maintenance
   was not conducted.

4. Discontinue the practice of adjusting the vehicle maintenance schedules to eliminate
   situations where maintenance was not performed.

Optimum Use of Resources

The Great Lakes Area did not always optimize its resources to ensure that maintenance
and repair funds were expended in the most efficient and cost effective manner.
Specifically, maintenance officials often used LCVs for vehicle maintenance and repairs
when using VMF resources would have been more efficient and economical. Likewise,
VMF resources were often used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles between facilities for maintenance and repairs when more economical means
existed. Click here to go to Appendix C for additional information on optimum use of
resources.

The following factors contributed to these conditions. Although VMF units had a vehicle
maintenance plan, the plan did not fully consider:

    •   The optimal combination of VMF resources and LCVs for performing scheduled
        maintenance and repairs.

    •   The cost effectiveness of using LCVs instead of VMF resources to shuttle
        vehicles between facilities for maintenance and repairs.


                                                   2
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-009
 Service in the Great Lakes Area




As a result, the Great Lakes Area expended more resources than necessary to
complete vehicle maintenance and repairs. By optimizing its resources, the Great
Lakes Area could reduce operating costs by about $2.8 million annually or more than
$28 million over 10 years. Click here to go to Appendix D for our detailed analysis of
the monetary impact.

We recommend the Vice President, Great Lakes Area Operations, direct district
managers:

5. Work with vehicle maintenance facility officials to:

    •   Maintain the most efficient combination of vehicle maintenance facilities and local
        commercial resources based on geographical location and costs.

    •   Make optimal use of the Postal Service’s national vehicle shuttle agreement or
        other local commercial shuttle services, when cost effective, for transporting
        vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings and recommendations. Management stated they
plan to issue a letter directing district managers to assess vehicle maintenance
technician positions, monitor and track key maintenance activities, discontinue the
practice of performing abbreviated SPM, and adjust the maintenance schedule to
prevent maintenance in arrears. Also, the Area Vehicle Maintenance Programs Analyst
will provide a monthly report to each district with the status of SPM completions.
Management stated that each district manager must immediately develop a plan to
complete all maintenance in arrears by June 2009 and remain in a non-delinquent
status in future months.

Furthermore, district vehicle maintenance managers will maximize opportunities to use
local vendors for scheduled maintenance and shuttling to eliminate maintenance in
arrears by June 2009. However, Great Lakes Area management disagreed with the
estimated $28 million over the next 10 years because they could not validate the
savings. We have included management’s comments, in their entirety, in Appendix G.




                                                   3
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-009
 Service in the Great Lakes Area




Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues identified in the report.

Management disagreed with our estimated monetary impact of $28 million over the next
10 years, stating they were not provided hard data or an opportunity to examine the
savings model to verify the estimated savings. The OIG believes the model used to
calculate savings provided a reasonable estimate of costs the Postal Service could save
by optimizing VMFs and LCVs. Further, we provided Great Lakes Area management
with detailed hard copy model data for examination on September 4, 2008. The OIG
also conducted detailed discussions on September 3 and 4, 2008, to explain to Great
Lakes Area management how we used the model and calculated the estimated savings.
Since Great Lakes Area management agreed that opportunity exists to improve
efficiency and plans are underway to better utilize VMF and LCV resources, we believe
the estimated savings are applicable and properly classified as monetary impact.

We will report $28,224,843 of funds put to better use in our Semiannual Report to
Congress. The OIG considers recommendation 5 significant and, therefore, it requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when management completes corrective actions. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.
     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                                   4
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-009
 Service in the Great Lakes Area




cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    Bruce D. Plumb
    Tracye D. Trent-Cashdollar
    Kathy R. Mayfield
    John C. Briggs
    Christopher B. Powers
    Janice J. McAllister
    Michael D. McFarland
    John C. Klim
    Mary E. Zirille
    Katherine S. Banks




                                                   5
Vehicle Maintenance Facilities – Scheduled Maintenance                 DR-AR-08-009
 Service in the Great Lakes Area




                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has invested more than $3 billion in vehicle assets for the purpose
of transporting and delivering the mail. The vehicle inventory consists of 219,522
delivery, transport, and administrative vehicles. Delivery and collection vehicles (see
the examples in Figure 1) account for 195,211 or about 89 percent of the total fleet.
The Postal Service acquired the majority of these vehicles between 1987 and 1994 and
planned to maintain them for 24 years. About 7,700 of these vehicles purchased in
1987 are approaching the end of their useful life. However, the Postal Service recently
stated that capital constraints now dictate that many of these vehicles must stay in
service until 2018 - 7 years more than the planned lifespan.

                                          Figure 1.
                    Delivery and Collection Vehicles in VMFs for SPM




                     Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for efficient mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Auxiliary VMFs were established for situations where vehicle
maintenance requirements exceed VMF resources or when shuttle time or geographical
distances warrant the use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle-related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to a Vehicle Post Office (VPO). VPOs can be post
offices, branches, stations, associated offices, or other delivery and support facilities.
Officials at VPOs can also contract with LCVs for maintenance and repair services, but


                                                   6
Vehicle Maintenance Facilities – Scheduled Maintenance                            DR-AR-08-009
 Service in the Great Lakes Area




they are required to document the repairs and obtain the VMF manager’s approval for
repairs and services costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance. The handbook also emphasizes preventive or
scheduled maintenance over reactive or unscheduled maintenance. (See Appendix F,
“Scheduled Maintenance Process,” for a flowchart.)

The Postal Service also established a Model Vehicle Maintenance Facility Performance
Review program. The review program is an integral part of VMF operations, and is a
key tool for determining the efficiency of a unit at a given time for identifying areas that
need corrective action. Districts must ensure that self-reviews are performed in all
VMFs on a quarterly basis. A VMF must achieve a score of 85 or more to be certified.
The area must certify or recertify each unit at least every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows VMF expenses, including commercial vendors’ expenses, for FY 2007.

                  Table 1. Maintenance Expenditures for FY 2007 by Area
                                          VMF and Commercial Expenditures
                                       Commercial           VMF
                  Postal Service     Vendor Expenses     Expenses in    Total Expenses
                 Area of Operation      in FY 2007         FY 2007        in FY 2007
                 Southeast                $13,867,484    $52,648,111      $66,515,595
                 Great Lakes               15,152,866     46,536,525       61,689,391
                 Eastern                   12,213,149     45,085,152       57,298,301
                 Western                   10,382,055     45,808,493       56,190,548
                 Pacific                    9,105,547     42,819,217       51,924,764
                 Northeast                 10,821,346     37,860,317       48,681,663
                 New York Metro            12,433,942     36,814,803       49,248,745
                 Southwest                  7,194,386     36,503,347       43,697,733
                 Capital Metro              7,643,667     32,808,458       40,452,125
                 Total                     $98,814,442   $376,884,423     $475,698,865
                Source: Postal Service Category Management Center




                                                   7
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-009
 Service in the Great Lakes Area




OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether the Great Lakes Area accomplished
all required scheduled maintenance, and whether they integrated both VMFs and local
commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from 93 of the 28 VMFs in the Great Lakes Area. We documented the scheduled
maintenance and number of SPMs required, and whether they were conducted in a
timely manner. We reviewed the Web-Enabled Enterprise Information System
(WebEIS) to analyze vehicles in “maintenance in arrears” status and compared the
number of SPMs completed to the actual maintenance records. We also obtained and
reviewed Web-based Complement Information System (WebCOINS) data on the
complement of vehicle maintenance technicians.

We reviewed FY 2007 for scheduled maintenance services for selected Great Lakes
Area VMFs (see Appendix E). We identified the number of Preventive Maintenance
Inspections (PMIs)4 to be performed at each VMF, the VPOs where the vehicles were
located, and the VPOs’ distance from the VMFs, and documented the number of vehicle
maintenance technicians assigned to each VMF.

We identified each VMF and LCV expenditures for scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented
the number of SPMs and SPM inspections required for each location on a yearly basis.
Using the VMAS vehicle work order history, we analyzed the average time to perform
an SPM for the nine VMF units reviewed in our sample.

We developed an optimization model that used the above operational data to establish
a baseline, standards, key characteristics, shuttle usage and cost. Using this data, we
established an optimum operating efficiency for each VMF. Click here to go to
Appendix D, “Calculation of Cost Savings,” for the model and assumptions we used to
compute monetary benefits.

We conducted this performance audit from October 2007 through September 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We relied on data from VMAS
and WebEIS. We did not audit these systems, but performed a limited review of data

3
  The random sample was reduced from ten to nine. We excluded the Gary, Indiana VMF due to the difficulty in
verifying the number of SPMs performed because of discrepancies in the vehicle inventory.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.


                                                         8
Vehicle Maintenance Facilities – Scheduled Maintenance                        DR-AR-08-009
 Service in the Great Lakes Area




integrity to support our reliance on the data. We discussed our observations and
conclusions with management officials on September 3, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued five reports related to our objectives.

                                    Report                                      Monetary
         Report Title               Number                Final Report Date      Impact
  Vehicle Maintenance            DR-AR-08-008            September 29, 2008    $14,251,384
  Facilities – Scheduled
  Maintenance Service in
  the Western Area
  Vehicle Maintenance            DR-AR-08-007            September 16, 2008    $27,620,773
  Facilities – Scheduled
  Maintenance Service in
  the Southeast Area
  Vehicle Maintenance            DR-AR-08-006            August 14, 2008      $34,522,159
  Facilities – Scheduled
  Maintenance Service in
  the Southwest Area
  Maintenance and                DR-MA-07-005            September 21, 2007    $1,571,517
  Repair Payments to
  Commercial Vendors
  Using Postal Service
  Form 8230,
  Authorization for
  Payment
  Management of                  DR-AR-06-005            June 14, 2006        $22,796,487
  Delivery Vehicle
  Utilization

The previous 2008 audits, like this one of the Great Lakes Area, are part of a series of
audits on this topic. Like these audits, the Great Lakes Area did not complete SPMs on
all vehicles, and did not always integrate both VMF and LCV resources for optimum
efficiency. Management agreed with our findings, recommendations, and monetary
impact.

The 2007 audit concluded that using the Postal Service Form 8230, Authorization for
Payment, process to pay commercial vendors for maintenance and repair services was
not cost effective and did not include controls to reconcile payments and ensure repair



                                                   9
Vehicle Maintenance Facilities – Scheduled Maintenance                DR-AR-08-009
 Service in the Great Lakes Area




costs were reasonable. Management agreed with our findings, recommendations, and
monetary impact.

The 2006 audit concluded the Postal Service officials have made significant strides in
reducing costs associated with delivery vehicle expenditures over the past 3 years.
However, delivery management officials could further improve the use of vehicles that
support delivery operations. Postal Service officials maintained excess and underused
delivery vehicles, and they leased delivery vehicles from employees and commercial
vendors when Postal Service-owned vehicles were available. Additionally, delivery
officials did not monitor the reasonableness of payments or the need for contracts with
employees for use of their personal vehicles. Management agreed with our findings,
recommendations, and monetary impact.




                                                   10
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-009
 Service in the Great Lakes Area




              APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Great Lakes Area completed 90 percent of their required SPMs during FY 2007.5
Four VMF units completed all of their SPMs. The other five VMF units completed
between 73 and 97 percent of the required SPMs. (See Table 2.)

                     Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                         Required in                   Percentage
                         VMF Location      FY 2007      Performed     of Performed
                         Detroit                2,693          2,693            100
                         Ft. Wayne                725            614             85
                         Grand Rapids           1,933          1,813             94
                         Green Bay              1,842          1,793             97
                         Lansing                1,429          1,429            100
                         Milwaukee              4,574          3,331             73
                         Saginaw                  881            881            100
                         South Bend               874            809             93
                         Springfield              961            961            100
                         Gary6            Not Verified   Not Verified           N/A
                         Total/Average         15,912         14,324             90
                         Source: VMAS and OIG optimization model

Several factors contributed to the above conditions.

    •   Insufficient Staffing. Officials stated the shortage of assigned maintenance
        technicians due to medical leave and the increased maintenance workload of
        one VMF unit7 contributed to not performing required SPMs. Officials indicated
        they determine their maintenance technician staffing requirements based on a
        staffing study completed by a Postal Service Headquarters task force several
        years ago. Based on the study results, each VMF was allocated a specific
        number of maintenance technician positions to staff each facility. This data was
        used because the Postal Service had not established a formal staffing policy for
        VMF maintenance technician positions.8 We reviewed WebCOINS which
        showed the Great Lakes Area has 21 full-time maintenance technician
        vacancies. Our optimization model9 analysis does not support additional full-time
        maintenance technicians for these VMFs if the VMFs performed at an optimal
        level. (See Table 3.)


5
  In FY 2007, approximately 15,912 SPMs were required in the nine units we reviewed in the Great Lakes Area.
6
  We excluded this VMF from our sample due to the difficulty in verifying the number of SPMs performed because of
discrepancies in the vehicle inventory. We have no reason to believe the exclusion alters the Great Lakes Area
percentage of maintenance performed.
7
  The VMF unit’s maintenance workload included servicing vehicles not assigned to their facility.
8
  We intend to address a need for a standardized staffing matrix in our national capping report to Postal Service
Headquarters.
9
  Our optimization model’s solution bases staff increase/decrease requirements on the number of “assigned” full-time
maintenance technician positions.


                                                         11
Vehicle Maintenance Facilities – Scheduled Maintenance                              DR-AR-08-009
 Service in the Great Lakes Area



                      Table 3. Estimated VMF Staffing Increase/Reduction Needs Based on
                                           OIG Optimization Model


                                                                                Staff
                                              Currently                  Increase/Reduction
                                              Assigned     Technicians         per OIG
                          VMF Location        Vehicles      Assigned     Optimization Model
                          Detroit                  1,276            27                    -3
                          Ft. Wayne                  474             6                     0
                          Grand Rapids             1,055            18                     0
                          Green Bay                  854             5                    -1
                          Lansing                    639            11                     0
                          Milwaukee                2,116            30                     1
                          Saginaw                    474             8                     0
                          South Bend                 525             6                     0
                          Springfield                443             9                     0
                          Total                    7,856           120                    -3
                         Source: VMAS, VMF management, and OIG optimization model

      •   Reporting and Tracking Maintenance Activities. Some VMF officials completed
          the Model Vehicle Maintenance Facility Performance Reviews for the VMFs.10
          However, these oversight efforts are not effective in managing vehicle
          maintenance programs to ensure timely completion of all SPMs due to
          inadequate and unreliable performance data. For example, one of the nine
          VMFs in our sample showed the facility completed more than 90 percent of their
          required SPMs in FY 2007, but the maintenance status reports showed no
          vehicles requiring maintenance as of September 30, 2007.

      •   Recording of Vehicle Status. The Great Lakes Area VMFs sometimes changed
          vehicle status from “maintenance not performed” (also called maintenance in
          arrears) to “maintenance performed.” For example, one VMF location showed 72
          vehicles as “maintenance in arrears” in WebEIS during August 2007. This
          location also consistently had vehicles in arrears every month during FY 2007
          recorded in WebEIS, ranging from approximately 15 to 72 vehicles per month.
          However, on September 30, 2007, the location showed zero vehicles in arrears.
          Officials stated that sometimes they perform an abbreviated SPM, the “six minute
          inspection,” and adjust the SPM schedule to prepare the annual vehicle
          maintenance plan for the next fiscal year.

Without completing all the required scheduled maintenance and repairs, some of the
Postal Service vehicles are vulnerable to breakdowns, which could adversely impact
timely mail delivery and potentially affect the well-being of employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of Long Life
Vehicles (vehicles that are more than 20 years old) until 2018, we believe it is critical
that these vehicles receive the required maintenance.
10
     Per Handbook PO 701, Fleet Management.


                                                     12
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-009
 Service in the Great Lakes Area




                       APPENDIX C: OPTIMUM USE OF RESOURCES

The Great Lakes Area did not always optimize its resources to ensure that maintenance
and repair funds were expended in the most efficient and cost effective manner.
Specifically, maintenance officials often used LCVs for vehicle maintenance and repairs
when using VMF resources would have been more efficient and economical. Likewise,
VMF resources were often used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles between facilities for maintenance and repairs when more economical means
existed.

Several factors contributed to this condition.

    •   Optimum Use of VMF and Commercial Resources. The vehicle maintenance
        plans for the nine VMFs did not consider an optimum combination of both VMF
        and commercial resources.11 Generally, it is more cost effective for the VMF to
        perform SPMs on VPO vehicles stationed within 50 miles of the VMF. However,
        a LCV should perform SPMs on vehicles when the VPO is more than 50 miles
        from the nearest VMF. We determined that 2,583 SPMs should have been
        performed at the other site - either the VMF or the commercial facility. (See
        Table 4.)

                     Table 4. VMF and Local Commercial Vendor Resources
                                                            SPMs That Could Have
                     FY 2007 SPMs                            Been More Optimally
                                                                                          Total SPMs That
                     Performed by                               Performed by              Could Have Been
      VMF                      Local        Total SPMs                      Local          More Optimally
    Location        VMF       Vendors       Performed          VMF         Vendors           Performed
 Detroit             1,861         832             2,693         467                0                  467
 Ft. Wayne             614           0               614            0               0                     0
 Grand Rapids        1,786          27             1,813            0              58                   58
 Green Bay             551       1,242             1,793         101                8                  109
 Lansing             1,248         181             1,429           52             584                  636
 Milwaukee           2,499         832             3,331           39           1,100                1,139
 Saginaw               703         178               881           16             100                  116
 South Bend            747          62               809           15              36                   51
 Springfield           961           0               961            0               7                     7
 Total              10,970       3,354            14,324         690            1,893                2,583
Source: VMAS data and OIG optimization model.

    •   Vehicle Shuttling. In most cases, we found that the Postal Service’s national
        vehicle shuttle agreement or local commercial shuttling services were more cost
        effective than using VMF maintenance technicians. The Great Lakes Area used
11
   The VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model
estimated the number completed by analyzing all work orders assigned to code 22 (scheduled maintenance), and
considered all work of at least 2 hours as an SPM.


                                                      13
          Vehicle Maintenance Facilities – Scheduled Maintenance                                           DR-AR-08-009
           Service in the Great Lakes Area




                   15,631 workhours for vehicle maintenance technicians to shuttle vehicles rather
                   than perform maintenance. The shuttle hours related to SPMs were equivalent
                   to about nine maintenance technician positions at a cost of $672,750.12 (See
                   Table 5.)

                            Table 5. Vehicle Maintenance Technician Hours Used for Shuttling


                                       Estimated           Total                                                                  Cost of
                    Number of         Maintenance         Shuttle      Percentage          Shuttle                                Shuttle
                     Vehicle           Scheduled          Hours          of Direct       Hours Used           Equivalent        Hours Used
                   Maintenance        Maintenance         Used in      Maintenance            by             Maintenance             by
                    Positions            Hours              FY         Hours Used         Scheduled          Technician         Maintenance
 VMF Location       Assigned            Available          2007         in FY 2007       Maintenance          Positions         Technicians
 Detroit                     27              37,886         2,964                8%             2,119                1.21            $91,185
 Ft. Wayne                    6               8,419         1,136               13%               638                0.36             27,460
 Grand Rapids                18              25,258         5,495               22%             2,527                1.44            108,753
 Green Bay13                  5               7,016            32                0%                 3                0.00                142
 Lansing                     11              15,435         1,370                9%              2393                1.36            102,995
 Milwaukee                   30              42,096         8,373               20%             5,791                3.30            249,236
 Saginaw                      8              11,226         1,602               14%               842                0.48             36,227
 South Bend                   6               8,419              3               0%                 0                0.00                  0
 Springfield                  9              12,629         1,994               16%             1,319                0.75             56,753
 Total/Average              120            168,384         22,970               14%            15,631                8.91          $672,750
Source: VMAS and OIG optimization model

          VMF officials indicated that the vehicle maintenance plan does not incorporate
          provisions for optimum use of resources to reduce operating cost. In addition, officials
          stated that they are reluctant to use shuttle alternatives due to historical union
          grievances and concerns. Also, officials stated that the quality of maintenance
          performed by LCV is often not comparable to the VMF, and a LCV cannot guarantee
          efficient service. Finally, officials stated that unique challenges face the Great Lakes
          Area due to the weather conditions and the absence of LCV competition in smaller
          towns.

          The OIG acknowledges the issues and concerns management raised and the financial
          challenges faced by the Postal Service that affect VMF operations. Notwithstanding
          these concerns and challenges, in our opinion, opportunities exist to become more
          efficient and potentially save money. Specifically, the Great Lakes Area could lower
          overall costs by $ 2.8 million annually. These efficiencies when projected for the 28
          VMFs in the Great Lakes Area could save an estimated $28 million. Click here to go to
          Appendix D for our detailed analysis of the monetary impact.


          12
             This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to
          any actual reductions in this report.
          13
             According to a grievance settlement awarded to the Green Bay VMF mechanics, all shuttling must be
          accomplished by craft employees.


                                                                      14
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-009
 Service in the Great Lakes Area




                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $28,224,843 in funds put to better use over the next 10 years for the
Great Lakes Area’s 28 VMFs.14

                                            Savings in Dollars
                                                                      Estimated
                                                     Average           Savings
                                                     Annual            Over 10
                            VMF Location             Savings            Years
                           Detroit                     $297,503       $2,975,028
                           Ft. Wayne                      22,316         223,159
                           Grand Rapids                   57,066         570,663
                           Green Bay                      25,362         253,618
                           Lansing                        32,593         325,929
                           Milwaukee                     248,059       2,480,588
                           Saginaw                       148,152       1,481,517
                           South Bend                     12,481         124,808
                           Springfield                    63,696         636,961
                           TOTALS                      $907,228       $9,072,271
                           Potential Projected Savings Over
                           28 VMFs in the Great Lakes Area           $28,224,843
                          Source: OIG optimization model

We calculated the savings based on the following methodology and assumptions.

•    Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
     Each VPO has a number of Postal Service vehicles that require regular SPM. The
     number of SPMs that a vehicle requires is determined at the beginning of the year
     based on the demands that the assigned route places on the vehicle. All SPMs for a
     given year must be performed on each vehicle; however, the VMF may delegate
     some of this workload to commercial vendors that are near the VPOs. We refer to
     this contract labor as LCVs.

•    The purpose of this audit was to determine the optimal use of the SPMs to be
     performed by the VMFs and LCVs. We took into consideration the mechanic labor
     costs and all relevant shuttling costs. As with the SPMs, VMFs may contract out
     shuttling. The Postal Service has a national vehicle shuttle agreement; and the OIG
     used that rate in the analysis. However, VMFs can use a less expensive local
     shuttle contractor if one can be identified.

•    We developed the optimization model to find a least-cost solution based on
     performing all required SPMs. We used the VMFs’ FY 2007 operational data. Any
     SPMs not currently performed by VMFs were considered to be completed by a
14
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $9.3 and $47.0
million. We used the midpoint estimate of $28.2 million in our statistical projection.


                                                       15
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-009
 Service in the Great Lakes Area




     LCV.15 We restricted the scope of this audit to maintenance technicians’ time spent
     performing scheduled maintenance and shuttling activities. This analysis draws no
     conclusions regarding the time dedicated to other activities or how maintenance
     technicians used the remainder of their time.

•    We optimized the VMFs’ scheduled maintenance and shuttling time for each of the
     next 10 years, assuming that the Postal Service would reduce the labor contingent
     by 3.45 percent per year, the historical Great Lakes Area attrition rate.16 This
     optimization gives the least-cost solution and specifies how the SPMs at each VPO
     should be distributed between the VMFs and the LCVs. The model shows which
     shuttling jobs should be done by both the VMFs and contractors. The model
     analyzes all costs and hours (for SPMs at VMFs, SPMs at LCVs, VMF shuttling, and
     contract shuttling). The model also shows the SPMs performed by, and the total
     amount that could be more optimally performed by VMFs and LCVs.

•    In these optimizations, we assumed that each VMF would operate at a standard
     efficiency. We used the sampled nine Great Lakes Area VMFs’ average time per
     SPM as a standard for the time it takes to complete an SPM in that area. If a
     particular VMF performed better than this standard, we assumed that the VMF
     maintained its current efficiency.

•    VMAS does not track the number of SPMs accomplished for each vehicle. The
     OIG’s efficiency and optimization model estimated the number of SPMs completed
     by analyzing all work orders assigned to code 22 (scheduled maintenance), and
     considered all work of at least 2 hours17 as an SPM. We explained the process and
     confirmed/adjusted the number of SPMs required and completed.

•    We identified cost savings if the VMF was not efficiently using its shuttling time. We
     compared the VMF's total shuttling time to the aggregate time that should be needed
     to perform all of the VMF’s shuttling, assuming that two vehicles were transported on
     each trip. The cost of any excess time was time that could have been saved,
     although the actual amount of time that could be saved was likely to be higher
     because the VMFs probably did not perform all of their own shuttling.

•    For our model, we reviewed the average overtime hours per week from what the
     VMFs used during the first 6 months of FY 2008 determined from the Enterprise
15
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and xxxxxxxxxxx xx xxx xxxxxxxxx xxxxxxxx xx xxx xxxxx xxxxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxx xxxxxxx
xxxxxx. Because a VMF may not perform all its required SPMs, we assumed a LCV would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
16
   The historical attrition rate for Great Lakes Area maintenance technicians was determined by averaging the past 7
years (2001 - 2007) of data obtained from the WebEIS.
17
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.


                                                         16
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-009
 Service in the Great Lakes Area




       Data Warehouse system. The number of hours of straight time worked for each
       mechanic per year is 1,754.18

•      Based on the above analyses and projections, we estimated that the Great Lakes
       Area could reduce costs by using local commercial resources for shuttling and SPM
       requirements when appropriate. We projected over the Great Lakes Area’s universe
       of 28 VMFs, a reduction of costs by approximately $2.8 million annually, or more
       than $28 million over a 10-year period.




18
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”


                                                       17
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-009
 Service in the Great Lakes Area


                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES

                                  District                  VMF
                                Central Illinois          Springfield

                                    Detroit                 Detroit

                               Greater Indiana           Ft. Wayne
                                                         South Bend

                              Greater Michigan           Grand Rapids
                                                           Lansing
                                                           Saginaw

                                   Lakeland               Green Bay
                                                          Milwaukee




                                                   18
Vehicle Maintenance Facilities – Scheduled Maintenance                       DR-AR-08-009
 Service in the Great Lakes Area

                                                                               19
                   APPENDIX F: SCHEDULED MAINTENANCE PROCESS




19
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.


                                                      19
Vehicle Maintenance Facilities – Scheduled Maintenance     DR-AR-08-009
 Service in the Great Lakes Area


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-009
 Service in the Great Lakes Area




                                                   21
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-009
 Service in the Great Lakes Area




                                                   22
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-009
 Service in the Great Lakes Area




                                                   23
